                                  AUDIT




 AUDIT OF THE INTERNATIONAL
 TECHNICAL ASSISTANCE PROGRAM




Report No.: ER-IN-OSS-0009-2009   July 2010
              OFFICE OF
              INSPECTOR GENERAL
              U S.DEPARTME T OFTHE IN                                R



Memorandum
                                                                                  JUl .2 1 2010

To:        Rhea S. Suh
           Assistant Secretary for oIicy, Management and Budget

From:      Mary L. Kendall                                         1J{
           Acting Inspector Genera

Subject:   Audit of the International Technical Assistance Program
           (Report No. ER-IN -OSS-0009-2009)

        This report details the results of our audit of the Department of the Interior (001)
International Technical Assistance Program (IT AP). This International Affairs Program is unique
within DOl in that it accepts funds from foreign countries, other U.S. Government agencies, and
various organizations in the service of other countries. Since its creation in 1995, IT AP has
accepted and disbursed over $20 million and provided technical expertise to 25 countries.

        We initiated the audit based on an allegation that IT AP handles funds inappropriately,
specifically, that IT AP has extended single-year appropriated funds from other Federal agencies
into multi-year funds and has split or made inappropriate purchases. We found no evidence to
substantiate misuse of funds. We did find, however, that IT AP functions without a clearly
defined DOl mission or operating procedures. Further, we uncovered some questionable
practices regarding fees and use of memorandums of understanding (MOUs). See Appendix A
for scope, methodology, and related reports .

        As a result, DOl is vulnerable to waste, fraud, and mismanagement of the millions of
dollars flowing through IT AP. We provide six recommendations designed to increase Program
accountability and minimize DOl ' s vulnerability. We consider all six recommendations to be
resolved because the Department concurs and is taking immediate action to address the
deficiencies identified (see Appendix B). No further response to the Office of Inspector General
(OIG) on this report is necessary (see Appendix C).

       The legislation, as amended, creating the OIG requires that we report to the U.S.
Congress semiannually on all reports issued, actions taken to implement our recommendations,
and recommendations that have not been implemented.

        If you have any comments or questions regarding this report, please call me at 202- 208-
5745.




                               Office of Inspector General   I Washington,   DC
Table of Contents
Introduction ............................................................................................................. 1
   Objective ............................................................................................................. 1
   Background ......................................................................................................... 1
   Structure and Operations ..................................................................................... 1
Findings................................................................................................................... 3
   Mission and Guidance ......................................................................................... 3
   Operating Procedures .......................................................................................... 4
Conclusion and Recommendations ......................................................................... 6
   Conclusion........................................................................................................... 6
   Recommendations ............................................................................................... 6
Appendix 1 .............................................................................................................. 9
   Scope and Methodology ...................................................................................... 9
   Prior Report ......................................................................................................... 9
Appendix 2 ............................................................................................................ 10
   DOI Response to Draft Report .......................................................................... 10
Appendix 3 ............................................................................................................ 15
   Status of Recommendations .............................................................................. 15




Cover: U.S. Department of the Interior International Technical Assistance
Program Web site http://www.doi.gov/intl/itap/countries.html
Introduction
Objective
We performed this audit in response to a hotline complaint our office received
regarding fiscal responsibility/accountability. To assess the quality of ITAP’s
stewardship of Federal resources, both its handling of funds and provision of
technical expertise, we reviewed the Program’s mission, its practice of accepting
funds from outside sources, and its use of MOUs to procure goods and services.

Background
In 1995, the U.S. Agency for International Development (USAID) and DOI
signed an agreement that led to the establishment of ITAP. This USAID
agreement was designed to advance capacity building in other countries using the
technical expertise of DOI staff. DOI uses donor funds to pay project expenses
and contributes the salaries and expertise of technical experts on a short-term
basis. ITAP has remained in operation in service of additional interagency
agreements.

Over the years, ITAP states that it has:

   • Strengthened government agencies in foreign countries through goal
     setting, planning, and training;
   • Trained and equipped environmental and cultural resource law
     enforcement officers;
   • Leveraged financial and technical resources by establishing public-private
     partnerships;
   • Encouraged local community participation in protected area management;
   • Developed mechanisms for contracting with and managing visitor
     services;
   • Created local jobs from sustainable tourism in and near protected areas;
     and
   • Helped launch small recreational services, lodging, and handicrafts
     businesses.

Structure and Operations
Several formal mechanisms, such as interagency agreements, convey donor funds
that average approximately $1 million annually. In general, the donor funds pay
for DOI involvement in worldwide capacity building; program implementation
and ITAP coordination and management, which may require site visits; and the
purchase of goods and services. Specifically, the funds pay for travel and per
diem costs of technical experts, who provide on-site technical assistance, study
tours, mentoring, train-the-trainers workshops, and procurement and training in
operations and maintenance of equipment. Detailed employees typically use their


                                                                                    1
travel cards to purchase airline tickets and pay for lodging, for which they are
reimbursed. DOI offices continue to pay the salaries of such experts.

In terms of purchases, ITAP uses the funds it receives for a specific project to
obtain goods and services on behalf of the given donor. In most cases, ITAP uses
MOUs for such purchases. Once an MOU is established, ITAP typically provides
programmatic and administrative services, such as monitoring project progress
and finances.

In one example of the process, USAID entered into an agreement with ITAP to
improve park access ticketing and to develop standard operating procedures
(SOPs) at Petra Park in Jordan. ITAP staff coordinated the services and travel of
National Park Service (NPS) experts, tracked expenditures, and provided USAID
with financial and program management reports. Two experts visited Petra Park,
evaluated current procedures, and prepared a report with recommendations for
improvement. Another four experts traveled to Petra and created several SOPs for
the Park. Using donor funds, ITAP reimbursed NPS for travel costs, as well as
obtained other services using MOUs. Specifically, ITAP reached agreement with
one outside party to pay for a study tour of the United States and with another to
provide administrative services.




                                                                                   2
Findings
During this audit, we found that ITAP has been operating in the absence of a
DOI-defined mission and without documented operating procedures. We are
concerned that, because of this vacuum, ITAP is at risk of identifying more with
its donors than with DOI. In fact, when asked to provide founding documents,
ITAP was unable to offer anything other than an interagency agreement with
USAID. It would appear that ITAP has become more dependent upon its donors
for direction than upon DOI. Such identification is compounded by the fact that
DOI interests may or may not be protected since the agreements include donor
safeguards but none that are DOI specific. Such agreements leave ITAP without
adequate legal and financial safeguards and no protection should questions of
responsibility arise.

Mission and Guidance
Without a DOI-defined mission and guidance, ITAP has come to rely on several
authorities to structure its relationships with its donors and affiliated entities.
ITAP points to the Foreign Assistance Act of 1961, as amended, 1 as one authority
for its international activities. For example, the Foreign Assistance Act 2
authorizes Federal agencies to work with “friendly countries” and certain other
international groups with USAID’s approval on an “advance of funds or
reimbursable basis.”

In addition, the Foreign Assistance Act 3 directs USAID to “cooperate with and
support the relevant efforts of other agencies of the United States Government,
including the United States Fish and Wildlife Service . . . [and] the National Park
Service . . .,” in providing foreign assistance for the preservation of biological
diversity. Departmental Manual Part 112, Chapter 6, establishes the International
Affairs group and authorizes administration of grants to provide DOI technical
assistance to foreign countries.

In terms of mission performance, however, ITAP operates on an ad hoc,
agreement-by-agreement basis. For example, ITAP does not follow the U.S. Code
of Federal Regulations (CFR) regarding grants and agreements. According to 2
C.F.R. § 215.0(b)(4), "Federal agencies may [emphasis added] apply the
provisions [that govern grants and agreements] to commercial organizations,
foreign governments, organizations under the jurisdiction of foreign governments,
and international organizations." Agencies are allowed similar discretion by 43
C.F.R. § 12.901 et seq. While ITAP’s decision not to follow these regulations
appears to be lawful, good stewardship dictates that ITAP explain its decision or
provide evidence that it has other controls to ensure similar protections for the


1
  22 U.S.C. § 2151 et seq.
2
  22 U.S.C. § 2357.
3
  22 U.S.C. § 2151q.

                                                                                      3
funds it disperses. If applied to ITAP activities, 43 C.F.R. § 12.901 would provide
for:

       •   Public notification, which encourages competition;
       •   Debarment and suspension restrictions, which prevent DOI from awarding
           funds to excluded parties;
       •   Recipient certifications and representations; and
       •   Standards for financial management systems, which ensure the presence of
           internal controls and accountability of grant money by recipients.

By choosing not to follow the grant and agreement requirements addressed above,
ITAP has, to date, avoided the competition and accountability protections inherent
in the CFR.

Operating Procedures
Without DOI guidance, ITAP has great latitude in determining how to operate.
Whichever authorities govern interagency agreements, good business practice
requires accountability in terms of decision-making and use of resources. We
found, however, that ITAP has not developed formalized internal documentation
of its policies and procedures. ITAP staff could not even articulate how ITAP
operates or how it sets fees. Further, when asked why ITAP chooses to use MOUs
over other contract instruments, ITAP failed to articulate, to our satisfaction, any
substantive reasons.

In terms of fees, ITAP has no internal policies on structure and appropriateness
when establishing management fees for financial and program management,
monitoring and documentation, and office operating expenses. For the agreements
we reviewed, charging such fees is authorized under the Foreign Assistance Act, 4
which allows recovery of 1) replacement costs, 2) actual costs if required by law,
or 3) any other agreed-upon price authorized by law. Without policies or
documentation, however, we could not determine whether the fees ITAP collects
are appropriate. Should ITAP recover more than is allowable by law, the Program
would be improperly augmenting DOI’s appropriation.

Typically, ITAP charges a 20 percent management fee for providing support to
donors and for simply passing along funds — often as directed by donors — to
nongovernmental organizations (NGOs) that provide goods and services. In one
egregious case, ITAP accepted donor funds in September 2008 to help USAID
strengthen Guatemala’s natural resource management. For roughly a 20 percent
fee, ITAP then passed on the donor funds to the NGOs that actually did the work.
In this particular case, USAID paid ITAP $127,000 to pass $533,000 on to
various NGOs. While ITAP monitored project implementation, DOI provided no
technical expertise.


4
    22 U.S.C.§2392(c).

                                                                                   4
We question why USAID would choose to use ITAP as an intermediary when the
Agency could save considerable management costs by simply paying NGOs
directly for the goods and services they provide. According to USAID personnel,
the Agency is under congressional pressure to have a larger program budget and
smaller operational budget. If so, USAID may be motivated to send all the funds
it can to ITAP to make its program expenses appear greater.

We also question ITAP’s widespread use of MOUs to conduct its foreign
activities on behalf of other Federal agencies. ITAP told us that the Foreign
Assistance Act and USAID directives authorize the use of MOUs. According to
one MOU issued by ITAP, its function is “provide a mechanism for collaboration
between DOI and the organization, within applicable laws, statutes and
regulations….” While MOU use may be appropriate in some instances, ITAP has
not been able to explain why MOUs have been their preferred instrument — as
opposed to grants, cooperative agreements, or contracts.

Finally, the Federal Funding Accountability and Transparency Act of 2006 5 (the
Transparency Act) and related OMB guidance dated June 2009 require Federal
agencies to enter the names of all entities and organizations that receive Federal
funds over $25,000 into www.USAspending.gov. The funds include Federal
financial assistance and expenditures, such as grants, cooperative agreements, and
other forms of financial assistance. To date, ITAP has posted no financial data in
www.USAspending.gov.




5
    Pub. L. No. 109-282.

                                                                                 5
Conclusion and Recommendations
Conclusion
We discovered a complex operational structure in which ITAP is governed by a
series of statutory and regulatory provisions, interlocking agreements, and
amendments rather than overarching DOI guidance. Further, ITAP has been
unable to explain many of its operations, such as its accountability protections, its
reliance on MOUs, and the administrative fees it charges donor agencies. The
resultant way of doing business not only makes it difficult to track funds, it also
leaves DOI vulnerable to waste, fraud, and mismanagement of millions of dollars
and will continue to do so, if no changes are made.

Specifically, we question ITAP’s:

   •   Avoidance of competition and accountability that results from not
       following the CFR and from accepting donor direction in the disbursement
       of funds to particular entities and
   •   Charging interagency agreement fees of roughly 20 percent when ITAP
       simply passes the funds on to private organizations and/or other U.S.
       agencies.

Recommendations
We recommend that DOI:

   1. Clarify and formally document ITAP’s mission and role within DOI.

       DOI Response to the Recommendation
       DOI concurs with this recommendation and states that the newly
       established Office of International Affairs is in the process of drafting
       language defining the Office’s organization, functions, and
       responsibilities. In addition, ITAP is developing its missions statement and
       revamping its Web site.

       OIG Analysis of the DOI Response
       DOI is taking the necessary action to address this recommendation.

   2. Draft and implement internal policy that would ensure ITAP complies
      with all statutory and regulatory requirements and adequately protects
      Federal funds.

       DOI Response to the Recommendation
       DOI concurs with this recommendation and states that ITAP will seek
       guidance from the Offices of Budget, Finance, and the Solicitor on
       policies and best practices in DOI bureaus.


                                                                                    6
   OIG Analysis of the DOI Response
   DOI is taking the necessary action to address this recommendation.

3. Ensure ITAP compliance with the Transparency Act.

   DOI Response to the Recommendation
   DOI concurs with this recommendation and states that ITAP will work
   with the Offices of the Chief Information Officer, Acquisition and
   Property Management, and the Solicitor to understand the requirements of
   the Transparency Act and then document guidelines.

   OIG Analysis of the DOI Response
   DOI is taking the necessary action to address this recommendation.

4. Consult with the Office of the Solicitor to determine when MOUs, grants,
   and cooperative agreements are the proper vehicle for disbursing funds
   through ITAP.

   DOI Response to the Recommendation
   DOI concurs with this recommendation and states that ITAP will consult
   with the Office of Acquisition and Property Management to discuss best
   practices and options available within the Office of Policy, Management
   and Budget for utilizing MOUs, cooperative agreements, and grant
   mechanisms. ITAP will then consult with the Office of the Solicitor to
   determine under what criteria each type of vehicle should be used and to
   document those guidelines.

   OIG Analysis of the DOI Response
   DOI is taking the necessary action to address this recommendation.

5. Ensure that agreements with donor agencies clearly define ITAP’s
   relationship with donors, the expectations of all parties, and the actions a
   donor agency may take in identifying an entity as a proper recipient of
   Federal funds.

   DOI Response to the Recommendation
   DOI concurs with this recommendation and states that ITAP will develop
   template language that defines its relationship with donors, DOI
   expectations in relation to other parties, and what actions may be taken to
   identify entities as proper recipients of Federal funds.

   OIG Analysis of the DOI Response
   DOI is taking the necessary action to address this recommendation.




                                                                                  7
6. Develop and implement policy and operating procedures that define
   ITAP’s processes, particularly its calculation of its administrative fees, to
   include requirements for regular review and appropriate adjustment.

   DOI Response to the Recommendation
   DOI concurs with this recommendation and states that ITAP will seek
   guidance from the Offices of Budget and Finance on best practices for
   calculating administrative fees. ITAP will also develop and adopt written
   policy guidelines and operating procedures for calculation, review, and
   adjustment of administrative fees.

   OIG Analysis of the DOI Response
   DOI is taking the necessary action to address this recommendation.




                                                                                   8
Appendix 1
Scope and Methodology
We performed our audit in accordance with the “Government Auditing
Standards.” The audit focused on ITAP’s mission, its acceptance and use of
funds, and fee structure. We believe that the work performed provides a
reasonable basis for our conclusions and recommendations.

As part of our audit, we:

   •   Reviewed ITAP’s authority;
   •   Reviewed prior reports issued by DOI OIG and the U.S. Government
       Accountability Office (GAO);
   •   Interviewed DOI personnel;
   •   Reviewed nine projects and accompanying agreements, including MOUs,
       Annexes, and Reimbursable Support Agreements pursuant to the Foreign
       Assistance Act of 1961 and other authorities. USAID funded five projects,
       the U.S. Department of State funded two projects, Millennium Challenge
       Corporation funded one project, and the Republic of Egypt funded one
       project.

We reviewed each project to determine whether ITAP properly accepted and
spent funds it received from outside sources. All nine projects had funding
applied to them during FY 2008 and FY 2009 (through April 2009). We ensured
that funding was current and had a bona fide need; reviewed contracts and other
vehicles that ITAP used to spend the funds; and examined ITAP’s relationship
with various organizations.

Prior Report
November 2006 — “U.S. Democracy Assistance for Cuba Needs Better
Management and Oversight” (GAO-07-147) describes deficiencies noted during
an interagency effort led by the State Department and USAID. GAO found that
communication between these agencies about the implementation of this
assistance was sometimes ineffective. Roughly, 95 percent of USAID’s grant
awards were made in response to unsolicited proposals to NGOs and universities.




                                                                                  9
Appendix 2
DOI Response to Draft Report

                                United States Department of the Interior
                                                      OFACE OF TH E SECRETARY
                                                            OFTHE   SECRETA RY
                                                           Washington. D.C. 202-W
                                                           Washmgton.       20240

                                                                 JUNN
                                                                 JU        1 1010
                                                                             2010
        Mcmof(lndUIl1
        Me morandum

        ·1l o:
        T   0:               Mary Kendall
                              nspector General
                            IIn!-'pcclor Genera!

        cc:             / Kimbc
                           Kimberrl>  Elmo
                                   l) El mo re
                           Assistant
                            ssistant Inspector           fo r Audits. Inspections and Ev
                                      Inspecto r General for                          EVniualions
                                                                                         a luations

        From:               Rhea S. Suh
                            Rhc3              t/i"A ~
                            Assistllnt   sc~c>, Management and Budget
        Subjec
        Subject:t:          Draft Aud
                            Orrin Auditit of
                                          orlt he Int ernati onal Technical
                                                  International             Assisttance
                                                                  Technical Assis  an ce Program
                            (Repo rt No. ER-IN
                            (Repon        ER-IN-OSS-0009-2009)
                                                   -OSS-0009-2009)


        Thank
        Thanl-. you fo  forr thc                        provided inn th
                             the insights you have pro\'ided                          ud it orlhe
                                                                         thee draft a udit   of the Departmen
                                                                                                     Dt..:panmentt ol't
                                                                                                                     oCtile
                                                                                                                          hc Interior
         ntc rn;J
        Intcr     tional Tcdmical
              mJlionai                  Assistance
                          Technical Assis        tance Program ( ITA  rAP  P).
                                                                            ), and fo
                                                                                    forr the opportunity to re\'ic\\
                                                                                                                  review and
        commenl. "I11C
        comment.        nl C recommen
                              recommend     d at
                                              ations
                                                 ions you ha\
                                                            havec made are consis       te nt wiith
                                                                                consistent       lh the Departmental
                                                                                                         Depan mt:ntal efT    lTon
                                                                                                                                 on 10
                                                                                                                                     to
                        renovatte our enti
        complete]) renova
        completely                        entire
                                               re int
                                                   intcma
                                                      emaliti onal
                                                              onal afTairs
                                                                   a ffai rs portfolio_
                                                                             port folio. We arc ar~ curre
                                                                                                     currclltt~      the process of
                                                                                                           ntly in Ihe
                    ne\~ Oeptll)'
        hiring a ne\\     Deplll Y Assistant Secretary for Po      POlicy         Internatt ional AITairs_
                                                                       licy and Interna               ffairs. :.IIld
                                                                                                              and have
                                                                                                                     han: designed
        the pos   it ion to amtllraC
            po!.ilion            melI candidates with strostron ng expe
                                                                   experrience in bo  bothth in
                                                                                              internat
                                                                                                tcrnat ional lpmlicy
                                                                                                                olic) and p rojectojec t
        management. Ea                thiss year. we created an Office of In
                             Earrlier thi                                          International    AtTairs \\ hic h w
                                                                                     ternat io nal Affairs             \\ ill hI;"
                                                                                                                              be
         managcd b)
         managed    by' .oa ncw
                            new cM'cutivc
                                 executive servservice ice levct
                                                           level D irecto
                                                                       ectorr.. Meanw hi     lc. we ha ve begun
                                                                                         hile.             bt!gun consul
                                                                                                                  consuliUliolls
                                                                                                                          tUlions
                nternat ional programs
         with intL'nmtional     progra ms at 00   0011b urea
                                                           ureausus and ot other  federall agencies_
                                                                              her federa   agencies. ththee State Depa
                                                                                                                  Department
                                                                                                                        rtment and
        lU'SAID
           SA ID to learn
                      leam nOout             besl p ra ctices. We will apply these lessons learned in order to
                              nbou t their best
        develop a3. new
                     no:" vision. prioriti..:       ~lIld s trategy
                                       priorities!; and      rateg y fro r the Offiee
                                                                               O ffi ce of
                                                                                        of lIntcmational Affairs
                                                                                                            AfTairs and for the
        Ol'pl.lrtml'n1.
         Department. \\hith       \/I ill
                          \\hic h ""i  ll be prcscl1lcd
                                             prcsented to th e Sec         etary and se
                                                                    Secrrelary           nior leadership later thi
                                                                                       scnior                     hiss ycar
                                                                                                                       yea r.,

        With rega    rd I()
                regard  to ITAP. we   a~ree that while
                                 \\e agree         \\hile the IG foundfou nd no evide
                                                                                  e\iden    ormisus~
                                                                                        nce of misuse of funds and no
        unla\\ ful cond uc t with re spect to grants and agreements, it will be im
        unll:l\\                                                                          importa
                                                                                             portannt fo
                                                                                                      forr IT
                                                                                                            TAP
                                                                                                              A P 10 adop
                                                                                                                     adoptt
        all of tbhe recomOll!nda
        :til                     tions contained
                     ec ommendations    contained in th                    repoo n in order to incre
                                                          thee [IG draft [I;!p                 increase
                                                                                                     ase P rogram
        accountabili
        accountabi litty and minimize           po te ntia l 00
                              mini mize any potentia         DO 1 l v ulnerab ility 10 Wa'itc.
                                                                                       waste. fraud
                                                                                               fra ud and
                  age men t. Specifica
        mismanagcment.
        misman                          lly ., 00
                             Specifically      0011 a g rees to:

                  Clarify        fomul li~
                  Cl arify and fom1al     l) docume
                                              documc!H    nt ITA P 's-s mis
                                                                        misss ion and ro le w ith in 00
                                                                                              ithin  DOL1.
                         uwJ iJllpkJII~
                  Draft Hilt! ilLlpklllt:1I1  illtt:fllall pu
                                          1I1 illlcmu         lky th
                                                           pulit.:y that
                                                                      at \\\ould  ~I!~ urt ITA !>
                                                                            uukl t:1i!>urt:    P t.:ulllplit:~
                                                                                                  CUJllplic~ wi\\ i t llh all   ~1i1tutOr)
                                                                                                                                ~til l utur)'
                         egulatory rl'quirements
                  and rcgul<llury     requi rements and adequatel>           prot~cts
                                                             adeq uatel) protL    'ClS fede ral funds.
                                                                                       fedeml
                  Ensure ITAITAPP compliance with the Transparenc)
                                                               Transparency Act.
                  CU II ~UIt \\ilh
                  CUII~ulL          thl" Offiet: of
                             "illl the           oftlilt: Sl.lli~itur and
                                                     ht." Sulicitor   ant! appropriate
                                                                            apprupriate puJi!":Y    oJ'fi!":c~ l\1
                                                                                          puJi!':)' uffice!)   tu l.kh::lIl1im:
                                                                                                                   I,ktcllllilll.· "hcll
                                                                                                                                   V, ill'll

                  MOUs,
                  MOUs. gruntS.
                             gr:lnts. :alIld
                                         nd cooperative
                                             cooperalive agreeme
                                                            agreement  ntss are the proper vehicle
                                                                                             \'chicle for disbursing
                                                                                                              disbursi ng funds
                  through ITA!'.
                             ITAP.




 Note: Attachment 2 of DOI’s response is not included as the information was
 redundant. Please see DOI’s bulleted clarifications on the next page.



                                                                                                                                                10
         Lnsurc Ihat
                  tlUII agrcement::.           dOlh.lr ugl.'llcil.'!<1
                         agn,:cnlI.::nb \\ ilh donor                   clcar l~ deline
                                                       ugl.'l1cies clear!.\     define ITA pp's      n:::lationship wi
                                                                                                  's rdationship    \\ ilh
                                                                                                                        lh
                  Dnd Ihe
         donors and     the expcctmions
                             C)\pccl:11ions ofo f all parties. including the     thc actions
                                                                                      nf.:tiuns au donor agcncy
                                                                                                            agenc) 1llLl)  havee
                                                                                                                    m<l) IK1\
         taken 10
                in identifying         tntil) as a proper recipient of federal funds.
                    idL'11tifying an entit)
         Develop
         De\ clop and~md implemenl
                           implement policy and operating procedures that define !TAP's processes.
         partic ula rl y its calc
         panicularly              ulalion ofils adm
                             cuic ulation          admiini    strative
                                                          nistrm      ivc fees.   to include requirements
                                                                          fCl!s. 10            requi rcmt'llts for regular
                                                                                                                     regul ar
                  nnd appropriatf'
         review and     appropriatc adjustmenl.
                                        adj ustment.

Proposed Dcpnnmc11Iai
         Departmental corrective actions in response 10 the rcpon'
                                                     to Ihe report 'ss fi nd
                                                                          ndings
                                                                             ings and
recom mcndations are inc
recommendations          luded in
                     included  III Attachment I.

Technical comments on         reran aan.
                      o n the report  rc. provided in Att achment 2. We thin)..
                                                      A llachmenl       think it is especially
important 10
imponant  to include the following clarifications in thl'
                                                      the repon:
                                                           report:

                  operates primaril) under Ihe
        ITAP operntcs                                the authority
                                                          authorit) of Ihe  the Foreign Assistance
                                                                                           AS!'islance Act of 1961. as
        amended.                state~ Illal:
        amemh:d. \\hich stHII.'::'       that: "anyagt:llc)
                                                 "any agent) of thl'         Uniled States
                                                                        the United            GO\ emment i~ :lUlhoriL.t!d
                                                                                       SWICS GOH::rnment          authorized
        to furnish
        10  fu rn ish services and       commodi ties on an ad\
                                  lind commodities                    ad\ance·of-funds
                                                                           alll:c-of-funds or reimbursement
                                                                                                 rcim hu rscmclll basis
                                                                                                                    bas is 10
                                   in\(:rnatio nal organi
        friend I) countries. inteOlrttionai                    zations. the American
                                                      organizations.            A merican Red Cross. and voluntary
                                                                                                                 \'oluntaf)
        nonprofit re    lief agenc ies registered
                      rciiefagt:llcies     reg.i !'tcrcd with            approved by the Agency for
                                                           w ith and approvcd                           ror International
                                                                                                            In ternational
        De\
        Development."
              dopment:'
                 ('on~istcn t ly solicits
        ITAP con::.istentt)       ~olici ts the review and appro'   nppro\ al o  off lhe          or the Solicitor in
                                                                                         OfficI.' of
                                                                                     tbe Office
        cSI:"lb lishing Mcmorand:J
        cst:lb           Memoranda or          Understandi ng.
                                           ofUndl!rstanding.
        ITAP use~      tvk moranda oflllld~rstandi
                  uses tvhmlOfallda       ofUnder~tand in      ng
                                                                g... with   u5sociated Annexes
                                                                     \\ ilh associatt:d   Annt!xcs and Reimbursablc
                                                                                                           Reimbursable
        Suppon Agreements. when eSlablishing.
        Supron                                                   rully collaborative.
                                               establishing. full)                          t,~o-way. partnership
                                                                          collaborati\·c. tVoa-way.
        relationships
        rela tionships withw ith other    go, cmmcnts or nongon'rlllncmat
                                  o ther governments             nong.o\·ern memal organizations. These
        mechanisms
        mcc hani sms arc  aTe re\ iewed and apprO\cdapprm ed b) the Solicitor's OlTice    OITiee and the Budget Office.
                                                                                                                      Oflice.
        IT AI) assesses incoming funds
        ITAP                               fund s at a rate of       10% to cover the costs of project management.
                                                                01"10%                                         management,
        incl                                impl~mentalion. oversight. reporting.
              uding project design. implementation.
        including                                                                  reponing. mon itoring and  und
        evaluation. If the funds fund s arc to be passed 10 an 13uretlU. nureau, the incoming funds are     arc assessed at
        1-3%
        2-3% 10  to C(lvcr
                    cover the CoslS
                                 costs of    adm inisteri ng the
                                          oi"adm                         pass·Lluollgh. including selling
                                                                  Ihe pass-through.                    setting up
        Reimbursablc Suppon
        Reimbursable        SUPI)Qrt Agreements.
                                        Agrecments. reponing. and general 0\ crsighl.        crsight. No fu nds arc
        passcd     through to 1l1l1lg0\
        passed Ihrough                      ernl11cntat
                                 nongo\ernillen         tal organiz.alions
                                                            organi/.l:lI ions \\wilhout
                                                                                  ilhoul lTA                malic and
                                                                                          IT A P program matic
        fina ncial ovcrsight.
        financial    oversight. the U1l' costs of ,\-hie
                                                      \\ hiehh afe   recovered
                                                               an: reeO\     acd b)by Ihe
                                                                                       the 20% 0\ overhead
                                                                                                     erhead rate.
                                                                                                             ratc.

If) ou
    au hil"\!    all) questi ons. please contact Larry Sperling. Acting Director or
         hu\ e;: an)'                                                               o f Intcrnational
                                                                                        International
A ffairs.                          Barbar.l Pil\"'in.
                201-108-3805 oorr Barb3ra
  rfal rs. aatt 202-208-3805                Pi tki n. Manager.
                                                      Ma nager. Il)\emational            Assi~1ance
                                                                International Technical Assistance
Program.
Program, al   at 202-208-522
                 202-208·52211.

Attachments
At tachmen ts




                                                                                                                                   11
Alla c!lm
      ilmcllt
          cnt I- Resp
                 Respou n§s e to Fin d in
                                       inggs


 Co rn'-c live
 Corn     li \'e Actions in Respon
                            Responsse to Find Findingingss :tud
                                                           and R ecom   mcndations
                                                                 ecommendati       ons in D Drafi Auditit Report
                                                                                             raft Aud
                         of th e lnt
                                 lnternat
                                     e rn at ion:.t
                                               n<lll Technical AsAssi
                                                                    sis tanc
                                                                        l ~ln cc
                                                                               e Pro
                                                                                 Progg ram
                                                                                       r am


Recommcnd<ltion # 1: Clarify and fomlalJy
Recommendation                   (ornlaUy docume nt ITAP's mission and role within 00 1.
                                                                                   001.

Ac ti on:: 001
   tion      DOl concurs. The newly established Office of International Affai          rs is in the p rocess of
                                                                                 Affairs
draf ti ng language defining
drafting             efin.ing th e Office's organ ization, functi
                                            organization,  functioo ns and responsibilities
                                                                            responsibilities,, including
ITAP,
ITAP , in the Depanmental Manual. Similarly. the Office is dev       deveelo ping its Mission Slatemem.
                                                                          loping                  Statement,
and is revamping its web site. It is expected t hat these actions
                                                             acti ons will fullllyy clarify and fonna   lly
                                                                                                 fonnally
docume
document     lTAP's mission and role within 001.
          nt ]TAP's                            DOL

Target Oa
       Datt es :

Septembe r 2010:    ITAP's
            20 10: ITAP               nnd role \I,~thin 00
                          ' s mission and               0011 drafted and documented in Office of
International
intematio               Mission
          llal Affairs .M.ission Slatement
                                 Statement and website.

JJune 2011: ITAP's
             TAP 's mission and role with in 0
                                     within  D01
                                               Ol formally documented in the Depanmcmal
                                                                             Depanmental
 Manual.

  itless of Officials Ilcspon
T itle                        sib lc:: Director of In
                      Responsible                  Intternational Affairs an
                                                                          andd Manager of ITAP



Recommendation #2 : Dra    Draftft and im plement internal policy tha
                                       implement                   hatt would ensure ITA P complies
with all sta
wIth         tutory an
         statutory  andd regulatory requ   irements and adequately protects federal
                                      requirements                            federaJ funds.

Acttiio n : 001
Ac           DOl co   ncurs. IT AP acknowledges that there have been no comp
                  concurs.                                                                 rehensive wTincn
                                                                                   comprehensive       r itten
o perating procedures for the Pr
operating                             ogram. ITAP \.."ill
                                   Program.             wiU seek guidance fr  from
                                                                                om the Offices of Budget.
Fi nance. and So
Finance.               citor on policies and best pra
                 Solli citOr                             ctices in 0
                                                     practices       01 bureaus. ITAP will draft and
                                                                   DOl
im  plement internal policy guidelincs
implemcnt                         uidel ines which: iden    tify the relevan
                                                       identity      relevantt authori
                                                                               authoritt ies and statutory and
regulatory requiremenLI;
reguhl.lnry                                mLl.~l1 adhere to; aniculate
              requirem enL':; that IITA P mll!'                          processes
                                                               Aniculate pr ocesses and
                                                                                     And procedu    res 10 ensure
                                                                                            procedures
com
compl pliiance;
          ance; and prov ide ad   equate protect
                               adequate   protectiio n of fede  ral funds
                                                           federal  funds..

Target Oat
       Datees:
September 20 I 0: Consultations with Offices of Dud get. finance
                                                 udge'l, nnance and Solicilor on best practices
                                                                    Solicitor 011
fr    DOl1bur ea
   om 00
from             us completed.
              eaus

              0: Int
          2010:
 December 201        ernal policy gu
                  nternal            idelines com
                                  guidelines      pletted and imp
                                              comple          implemented
                                                                  lemented..

Titles of Offici:ll
          Offici alss Res
                       i"s ponsibl e : Director of iIntern ational Affairs and Manager of ITA P
                                                     nternational



 Rccommt:mJa li on #3 : Ensure ITAP compli
 Recommt!Dll<ltion                         ance with the Transparency Act.
                                    compliance

Action:: DO
Action                     ITAP Will
          DOll concurs. ITA?    \\111 cons ult w ll
                                      consult    ithh the Uffices of thc: Chlc:finlbnnatJOn
                                                                      the Chlcf                 Otlice r.
                                                                                  InJonnation Otiice
Acquisition a nd Prope rtyy Management. an
                 Prope                     andd Solicito r 10        ~t.and the
                                                           \0 unde r ~tand       reqtlir~ment<; oflhe
                                                                            t.he requiremcnll;  nfthe




                                                                                                                    12
AlIlu:
An l!.chmt"1I    l - Res
       hm (' nl1 !-  R C:SJlO II ~1.' T
                          p()lI;;e    toO Fi
                                          Finding~
                                             nd i n ~~




                                     t'n~ur~ compliancl!
Transparenc) Act and ho\\ to t.'llsure       compliance \\ilh
                                                         \\ ilh the ACI
                                                                    Act as soon as possible. Al \ ny
processc:;:s nece~sary
proci;:sses ncc (!ssar) to ens urI;! compliance will be documented in written guidelines.
                           ensure                                                  guideli nes.

          D ~lIte
Tarr g et Da
Ta              c:

              I 0: Consultations
September 20 10:                       Offices of CIO and So
                   Consulwlions v. ilh Ofliccs               Solicitor
                                                               licitor on Transparency Act
compliance
com pliance completed.
            complelCd. December
                       Decemher 2010: Wrinen
                                           \\'rin en guidelines on internal measures
                                                                    inlemalmeas       to ensure
                                                                                 ures 10
Transparenc~
Transpar enc) Act compliance completed and implemented.

T itl es of Offi c ials
  itles             al s Res p onsi
                               on si bl e : Director of Internationa
                                                         nternationall Affairs an
                                                                               andd f\Manager
                                                                                       lanagcr of ITAP
                                                                                                  ITA P



Reco mm endati o n #-4 : Consult
Recommendati             Consuli with the Office
                                           Oflicc afthe
                                                  orthe Solicitor to determine w \ , hen MOUs,
                                                                                         MOUs.
grants. and c ooperative ag
                         agreemenls      thee proper vchicle
                            reements are th          vehicle fo r disbursing funds thro ugh ITAP.
                                                                                            ITA P.

Ac tioo n : 001 concurs. !TAP \\i1l
Acti                                Hill consult
                                          consull with the Omce
                                                            Office of Acquisition and Propcny
                                                                                         Propcn)
Management to discuss be~t  be:.t practices
                                   pr"dctices in 001 BBureau~                ~nailablle \\ithin PMB for
                                                        ureaus and options availab
            MOUs, coopcrati\c
utilizing MOUs.     coopcrati\'e agreements and grantsgrunts mechan   isms. O nce Ihe
                                                             mechanisms.           the m enu of vehicles al
                                                                                                          at
ITA
IT A P's disposal is definitively
                      defini ti\ c1) detennined.         ITA P will consult with
                                      determ ined . then ITAP                wilh the Office of th e
              detemline when :-'10Us
Solicitor to determine            MOUs . grants and coopemtive
                                                        cooperative ag  reements
                                                                     agree ments arc
                                                                                  are appropriate   vehicles
                                                                                       appro priate vchicles
for disbursing funds    through
                 fu nds thro ugh ITAP. Criteria a nd processes for detl!nnetemlining   the app
                                                                                ining Ihe  appropriate
                                                                                               ropri ate
 ehicles
vch icles for funds disbursement wi ll be documedocumented      wri llen
                                                        nted in wrill cn guidelines.

T:ll r g c lt Dates
T:             at es :

Septetem     2010: Consultatio
       mber 1010:  Consultations
                               ns with
                                  \\ ith Offices of Acquisitio
                                                    Acquisitionn and Propert)
                                                                      roper!) Management and
Solicitor
So licitor completed.

Decemberr 20]
Decembe   2010:0: Crite
                  Cri terria and processes for detenni
                                                 dctermi ni ng th
                                                               thee appropriate vehiclcs
                                                                                vehicles for funds
disbursemen t documented in v"Titten     guidelinn es.
                                \\Titten guideli

Titl es of Offi c ial s Res
                         esppoo ns ibl e : Director of International Affairs
                                                                     Affai rs and Manager of ITAP



Reco mm endatioo n #5:
Recommendati         #5: E nsure lthal
                                    hat all af;reements
                                            agrecmems with
                                                        \\ ith donor agencies
                                                                     agcncies clearly
                                                                                clearl) define ITAP'
                                                                                               IT A P·::.s
relationship
 elationshi p with donors a nd the expectations of all panies,
                                                         panies. including the actions a donor agency
rna) have taken in identify in
may                          ingg an entit) as a proper recipie
                                                         recipient
                                                                 nt of federal funds.

    ri o n:
A ecti   n: 00
             0011 concurs. IT AP ..<\.? will de\'elop template
                                                       templatel:J.nguage
                                                                 language dedefining    ITAP's
                                                                               fi ning ITA   P's relationship wit
                                                                                                                withh
donors and DOrsDOl's expectations
                        ex pectations vis-a.-vis
                                            s·a-vis other pa
                                                          parties.  including
                                                             n ies. includi     with
                                                                            ng wi     regaa rd to actions a dono
                                                                                   th reg                   donorr
agency may  ma) have taken
                       wkcn in identifying an entity as a p roper reci   recipient
                                                                             pi ent of federal
                                                                                        feder"JI funds.
                                                                                                 fun ds. thai \"'il1 be
                                                                                                         that will
avai lable foforr use in future
                         furur\! agreements with wi th donors.

Tar gett D:He:
T arge    at e:

December 2010:
         20 I 0: Template
                 Templatc language d rafted for use in future
                                                       futu re agreements with donors ..

T itle
  itless of O ffil
              ffi cia
                  ·iall!.s Re spons ibl e:; Director
                                            Di rector of International
                                                          ntemmional AfTairs and Manager of IT AP




                                                                                                                          13
AII:lc hIlWll
t'\1I:lc hnWUIt   J - J{\.'~
                      Ih'~ pOpon~c
                               fi.'>~   to   F"in din
                                             Filll.Ji ll~~
                                                        !;~




RcCeomml
   l'OOlIllt.' ndati
               ndari o n #6 : De\elop
                               D.:\elop and imph.:mclll
                                             imph,:mem polic) and operming        procedures thm
                                                                     operating procedure!)    thai ddinc
                                                                                                   define
IT AP's  proc~s se~.
   AP' s proc~33es.      par1jcularl~ its calculation of iLS
                         paniculurl~                         adminislrati\ e fei!s.
                                                         its adminislrutiH:  fees. to indudt:
                                                                                      indud\.! ri!quirements
                                                                                               requirt:ments
               review and proper adjustment.
for regu la r rt:'vie,\'

AC 1i
Ac ti on
      on:: DOl concurs. ITAP will seek  sc~ k guidance from the  lh~ Ofiices of Budget and Finance on
best practices for ca    lculating administrati\
                      calculating                  fet:~. IlTAP
                                   administrati, e f.:es.   TAP"      ill then dt:\
                                                                   \\ illlhen  de\ dop and adopt "'Tinen
                                                                                                 wrinen
         guidellines and operat i ng procedures for calcula
policy guide
polic)'                                                        ti on. review and adjustment of
                                                       calculat.ion.
administ          fet's.
          rati\c fees.
administrative

       D<ltc s~ ::
Target Date

        201I 0: Cons
October 10           ultations with Offices of Budget and
                Consultations                         nnd Finance completed.

December :!Ol        Wrineo
          201 1l : Writt e n policy guidelines and operat
                                                    operating
                                                          in£ procedures for ca lculation, review
                                                                             calculation.  re\ iew
and adjuslmem    of administrative
    adjustment ofad   ministrutive fees completed..

Titl es of
Titles  ofOOffici:'ll
            ffi ci:'l lss H:
                          Respo n s iblc
                                    ible:: Director of Interna tionall Affairs and ManagerofiTAP
                                                        nternationa                Manager afiT AP




                                                              3




                                                                                                               14
Appendix 3
Status of Recommendations

   Recommendations      Status         Action Required


         1-6         Resolved; not   No further response to
                     implemented.     the OIG is required.
                                     The recommendations
                                     will be referred to the
                                     Assistant Secretary for
                                       PMB for tracking of
                                        implementation.




                                                        15
      Report Fraud, Waste,
      and Mismanagement
             Fraud, waste, and mismanagement in
            government concern everyone: Office
           of Inspector General staff, Departmental
            employees, and the general public. We
               actively solicit allegations of any
           inefficient and wasteful practices, fraud,
                and mismanagement related to
            Departmental or Insular Area programs
                and operations. You can report
               allegations to us in several ways.



By Mail:            U.S. Department of the Interior
                    Office of Inspector General
                    Mail Stop 4428 MIB
                    1849 C Street, NW
                    Washington, D.C. 20240


By Phone:           24-Hour Toll Free                   800-424-5081
                    Washington Metro Area               703-487-5435


By Fax:             703-487-5402


By Internet:        www.doioig.gov
